No. 20-18

Jn the Supreme Court of the United States

Arthur Gregory Lange,
Petitioner,
v.
State of California,
Respondent.

On Writ of Certiorari to the Court of Appeal of the State of California,
First Appellate Division

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Illinois et al.
as Amici Curiae in Support of Petitioner contains 7,253 words, excluding the parts

of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Sun J

Jane Elinor Notz

Executed on December 11, 2020.

    
 

00 West Randolph Street
12th Floor

Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il-us
Counsel for the State of Illinois

 
